Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




  ANALYZING CHANGES TO
  MEDICAID FEDERAL UPPER
      LIMIT AMOUNTS




                    Daniel R. Levinson
                     Inspector General

                      October 2012
                     OEI-03-11-00650
EXECUTIVE SUMMARY: ANALYZING CHANGES TO MEDICAID FEDERAL
UPPER LIMIT AMOUNTS
OEI-03-11-00650


WHY WE DID THIS STUDY

Prior Office of Inspector General (OIG) work consistently found that the published prices
used to set Medicaid’s Federal upper limit (FUL) amounts often greatly exceeded prices
available in the marketplace. Partly because of OIG work, provisions of the Deficit
Reduction Act of 2005, P.L. 109-171, were crafted to substantially change the method for
calculating FULs and most likely would have resulted in lower FUL amounts; however, these
changes were never implemented because of an injunction against the Centers for Medicare &
Medicaid Services (CMS) and subsequent changes in the law. The Affordable Care Act
(ACA), P.L. 111-148, enacted in March 2010, also includes provisions that seek to change
FUL amounts. In September 2011, CMS began releasing the new FUL amounts to the public
in draft form. Given our previous findings that FUL amounts based on published prices
greatly exceeded pharmacy acquisition costs and that the new FUL amounts have not taken
effect, we compared FUL amounts based on published prices to FUL amounts based on
average manufacturer prices (AMP) and then compared both FUL amounts to pharmacy
acquisition costs.

HOW WE DID THIS STUDY

We compared aggregate pharmacy acquisition costs for selected drugs to (1) FUL amounts
based on published prices and (2) FUL amounts based on post-ACA AMPs. We also
compared FUL amounts based on published prices to FUL amounts based on post-ACA
AMPs and calculated the difference for each drug.

WHAT WE FOUND

We found that FUL amounts based on published prices were more than four times greater
than sampled pharmacy acquisition costs. We also found that FUL amounts based on AMPs
were 61 percent lower than FUL amounts based on published prices, at the median. Despite
the reduction in proposed reimbursement, FUL amounts based on AMPs still exceed sampled
pharmacy acquisition costs by 43 percent in the aggregate. CMS had not implemented FUL
amounts based on AMPs as of August 2012. Although CMS has taken steps to implement
FUL amounts based on AMPs by calculating the new amounts and issuing draft files for
review, FUL amounts continued to be based on published prices as of August 2012.

WHAT WE RECOMMEND

Given the results of the body of OIG work and the potential reduction in Medicaid
expenditures, we recommend that CMS complete the implementation of the post-ACA
AMP-based FUL amounts. CMS concurred with our recommendation and stated that it plans
to implement FUL amounts based on AMPs in the near future.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................6
Findings........................................................................................................9
           FUL amounts based on published prices were more than four
           times total pharmacy acquisition costs ............................................9
           FUL amounts based on AMPs were 61 percent lower than FUL
           amounts based on published prices, at the median ..........................9
           Even with the reductions resulting from the new methodology,
           FUL amounts based on AMPs would still have exceeded
           pharmacy acquisition costs in the aggregate ..................................10
           CMS had not completed implementation of AMP-based FUL
           amounts as of August 2012 ............................................................10
Conclusion and Recommendation .............................................................12
           Agency Comments and Office of Inspector General Response.....12
Appendixes ................................................................................................13
           A: Detailed Sampling Plan............................................................13
           B: Agency Comments ...................................................................14
Acknowledgments......................................................................................16
                  OBJECTIVES
                  1. To compare pharmacy acquisition costs for selected drugs to Federal
                     upper limit (FUL) amounts based on published prices.
                  2. To determine how FUL amounts would change under the average
                     manufacturer price (AMP)-based methodology required by the
                     Affordable Care Act (ACA), P.L. 111-148.
                  3. To compare pharmacy acquisition costs for selected drugs to FUL
                     amounts based on AMPs.
                  4. To assess the Centers for Medicare & Medicaid Services’ (CMS)
                     implementation of FUL amounts based on AMPs.

                  BACKGROUND
                  The FUL program was established to ensure that Medicaid takes
                  advantage of lower market prices for multiple-source drugs. 1 Prior Office
                  of Inspector General (OIG) work consistently found that the published
                  prices used to set FUL amounts often greatly exceeded prices available in
                  the marketplace. Partly because of OIG work, provisions of the Deficit
                  Reduction Act of 2005 (DRA), P.L. 109-171, were crafted to substantially
                  change the method for calculating FULs and most likely would have
                  resulted in lower FUL amounts; however, these changes were never
                  implemented because of an injunction against CMS and subsequent
                  changes in the law. The ACA, enacted in March 2010, includes provisions
                  that seek to change FUL amounts. In September 2011, CMS began
                  releasing files containing draft FUL amounts based on the new
                  methodology required by the ACA.
                  Medicaid Reimbursement for Prescription Drugs
                  Medicaid, established under Title XIX of the Social Security Act (the Act),
                  is administered by States and financed using State and Federal funds. All
                  50 States and the District of Columbia (hereinafter referred to as States)
                  offer prescription drug coverage as part of their Medicaid benefit
                  packages. Medicaid expenditures for prescription drugs totaled
                  approximately $29 billion in 2010. 2
                  Medicaid beneficiaries typically receive covered drugs through
                  pharmacies, which are reimbursed by State Medicaid agencies. Federal
                  regulations require, with certain exceptions, that each State Medicaid

                  1
                   Generally, a drug is considered multiple-source if generic versions are available.
                  2
                   Medicaid expenditures were calculated using data from CMS’s Medicaid Budget and
                  Expenditure System. This total does not reflect rebates collected through the Medicaid
                  drug rebate program.


Analyzing Changes to Medicaid Federal Upper Limit Amounts (OEI-03-11-00650)                                1
                  agency’s reimbursement for a covered outpatient drug not exceed (in the
                  aggregate) the lower of (1) the estimated acquisition cost plus a reasonable
                  dispensing fee or (2) the provider’s usual and customary charge to the
                  public for the drug. 3 CMS allows States flexibility to define estimated
                  acquisition cost; most States base their calculations on average wholesale
                  prices (AWP) or wholesale acquisition costs (WAC). 4, 5
                  CMS is collecting national average drug acquisition cost data to develop a
                  new reimbursement benchmark for State Medicaid agencies that is more
                  reflective of pharmacies’ acquisition costs. To develop this benchmark,
                  CMS will obtain actual pharmacy drug acquisition costs from a random
                  sample of pharmacies using a monthly nationwide survey.
                  Medicaid FUL Program
                  To reduce expenditures for Medicaid prescription drugs, CMS and the
                  States have implemented certain cost containment measures, including the
                  FUL program. 6 The FUL program limits Medicaid reimbursement for
                  certain multiple-source drugs and seeks to ensure that the Federal
                  Government acts as a prudent buyer by taking advantage of market prices
                  for these drugs. CMS calculates a FUL amount for specific forms and
                  strengths for each multiple-source drug that meets the established
                  criteria. 7, 8 According to CMS data, FUL drugs accounted for $2.4 billion
                  in Medicaid expenditures in 2010. 9




                  3
                    42 CFR § 447.512. CMS issued a proposed rule in February 2012 that would replace
                  estimated acquisition cost with actual acquisition cost as the basis of Medicaid pharmacy
                  reimbursement. In the proposed rule, CMS states that the data used to calculate actual
                  acquisition costs will be more reflective of pharmacies’ purchase prices. See 77 Fed.
                  Reg. 5318, 5320–5321 (Feb. 2, 2012).
                  4
                    The majority of States obtained AWPs from the publisher First DataBank. However,
                  First DataBank stopped publishing AWPs as of September 2011. This has forced many
                  States to reevaluate their reimbursement methodologies. See OIG, Replacing Average
                  Wholesale Price: Medicaid Drug Payment Policy (OEI-03-11-00060), July 2011.
                  5
                    CMS, Medicaid Prescription Reimbursement Information by State – Quarter Ending
                  December 2011. Accessed at http://www.cms.hhs.gov on February 17, 2012.
                  6
                    Other examples of cost containment measures include State maximum allowable cost
                  (MAC) programs and the Medicaid drug rebate program.
                  7
                    CMS, Transmittal No. 37 – Federal Upper Limit Drug List. Accessed at
                  http://www.cms.hhs.gov on July 15, 2011.
                  8
                    Section 1927(e)(4) of the Act generally requires CMS to establish a FUL amount when
                  three or more formulations of the drug were rated as therapeutically and pharmaceutically
                  equivalent by the Food and Drug Administration. Additional requirements as set forth in
                  42 CFR § 447.332 include that at least three suppliers of the drug are listed in current
                  editions (or updates) of published compendia of cost information for drugs available for
                  sale nationally.
                  9
                    Medicaid expenditures were calculated from CMS’s 2010 Medicaid Drug Rebate
                  Program Utilization Data. This total does not include rebates.


Analyzing Changes to Medicaid Federal Upper Limit Amounts (OEI-03-11-00650)                              2
                  Calculating FUL Amounts
                  Historically, CMS set FUL amounts equal to 150 percent of the price
                  published in national compendia for the least costly therapeutically
                  equivalent product that could be purchased by pharmacists in quantities of
                  100 tablets or capsules, plus a reasonable dispensing fee. (If the drug is
                  not commonly available in quantities of 100, the package size commonly
                  listed is used; in the case of liquids, the commonly listed size is used.) 10
                  The most commonly used published prices in setting FULs are WACs,
                  AWPs, and direct prices. 11 National compendia, such as Redbook, publish
                  these figures based on information provided by drug manufacturers.
                  Previous OIG work consistently found that the published prices used to set
                  Medicaid FUL amounts often greatly exceeded prices available in the
                  marketplace. 12
                  Proposed Changes to FUL Amounts Under the DRA. Partly because OIG
                  work showed that FUL amounts based on published prices were
                  significantly higher than AMPs, the DRA proposed significant changes to
                  the FUL program. 13 Section 6001(a) of the DRA changed the basis of
                  FUL amounts from 150 percent of the lowest price published in national
                  compendia to 250 percent of the lowest reported AMP. 14
                  In July 2007, CMS promulgated a final rule that implemented the DRA
                  provisions related to FULs. 15 The final regulation took effect on
                  October 1, 2007, and CMS planned to issue the first AMP-based FULs on
                  December 30, 2007. However, two trade associations representing retail
                  pharmacies filed a lawsuit because they were concerned that the proposed
                  FUL amounts calculated using the DRA method might not adequately
                  reimburse providers for their costs, thereby limiting access to certain


                  10
                     See, for example, 42 CFR § 447.332. This regulation has been removed. However, as
                  of May 2012, CMS continues to use the FUL criteria found in 42 CFR § 447.332.
                  11
                     Although the definition of WAC is prescribed by Federal law (at 42 U.S.C.
                  § 1395w-3a (c)(6)), neither AWP nor direct price is defined in statute or regulation.
                  12
                     For example, see OIG, A Comparison of Medicaid Federal Upper Limit Amounts to
                  Acquisition Costs, Medicare Payment Amounts, and Retail Prices (OEI-03-08-00490),
                  August 2009.
                  13
                     OIG, Comparison of Medicaid Federal Upper Limit Amounts to Average Manufacturer
                  Prices (OEI-03-05-00110), June 2005.
                  14
                     Before October 2010, the AMP was generally defined by statute (at 42 U.S.C.
                  § 1396r-8(k)(1)) to be the average price paid to the manufacturer for the drug in the
                  United States by wholesalers for drugs distributed to the retail pharmacy class of trade.
                  Pursuant to § 1927 (b)(3) of the Act, for Federal payment to be available for their covered
                  outpatient drugs under Medicaid, manufacturers must provide AMPs to CMS monthly
                  and quarterly.
                  15
                     72 Fed. Reg. 39142, 39244 (July 17, 2007). 42 CFR § 447.504 of the 2007 regulation
                  outlined the manner in which the AMP is to be determined, and 42 CFR § 447.514
                  addressed the new criteria for the establishment of FUL amounts.


Analyzing Changes to Medicaid Federal Upper Limit Amounts (OEI-03-11-00650)                                3
                  drugs. 16 In December 2007, a Federal judge issued a preliminary
                  injunction preventing CMS from implementing the DRA-mandated AMP-
                  based FUL amounts. In July 2008, the Medicare Improvements for
                  Patients and Providers Act (MIPPA), P.L. 110-275, further delayed
                  implementation of the DRA-mandated AMP-based FUL amounts. 17
                  CMS formally withdrew the regulations implementing the DRA-based
                  changes to FULs, effective December 2010, and the injunction against
                  CMS was lifted in the same month. 18
                  Proposed Changes to FUL Amounts Under the ACA. Section 2503 of the
                  ACA amended section 1927(e) of the Act by revising FUL amounts to be
                  no less than 175 percent of the weighted average of the most recently
                  reported monthly AMPs. 19 This section of the ACA also amended section
                  1927(k) of the Act by revising the definition of AMP. 20, 21
                  As of August 2012, CMS has continued to base FUL amounts on
                  150 percent of the lowest published price. 22 However, CMS has issued
                  draft FUL amounts based on AMPs for review and comment. 23
                  Table 1 summarizes the proposed and actual methodology for calculating
                  FUL amounts.




                  16
                     National Association of Chain Drug Stores (NACDS) and National Community
                  Pharmacists Association (NCPA), Frequently Asked Questions (FAQs) Lawsuit Filed by
                  NACDS and NCPA Against CMS Challenging AMP Rule. November 7, 2007. Accessed
                  online
                  17
                          at http://www.ncpanet.org on December 2, 2011.
                     Consistent with §§ 203(a) and (b) of the MIPPA, CMS could not implement
                  AMP-based FUL amounts or publicly disclose AMP data before October 2009.
                  18
                     See 75 Fed. Reg. 69591, 69597 (Nov. 15, 2010). See National Association of Chain
                  Drug Stores, et al., v. U.S. Department of Health and Human Services, et al., Civil
                  Action No. 1:07cv02017, order dated December 15, 2010.
                  19
                     Changes to the FUL amount in the ACA superseded the DRA changes.
                  20
                     Under the ACA provisions, the new definition of AMP is the average price paid to the
                  manufacturer for the drug in the United States by (1) wholesalers for drugs distributed to
                  retail community pharmacies and (2) retail community pharmacies that purchase drugs
                  directly from the manufacturer.
                  21
                     Pursuant to § 1927(k)(10) of the Act, “retail community pharmacy” means an
                  independent, chain, supermarket, or mass-merchandiser pharmacy that is licensed as a
                  pharmacy by the State and that dispenses medications to the general public at retail
                  prices. Such term does not include a pharmacy that dispenses prescription medications to
                  patients primarily through the mail; nursing home, long-term care, or hospital
                  pharmacies; clinics; charitable or not-for-profit pharmacies; government pharmacies; or
                  pharmacy benefit managers.
                  22
                     CMS has calculated FUL amounts based on the requirements set forth in ACA,
                  although it has not yet implemented them.
                  23
                     CMS, Draft Affordable Care Act Federal Upper Limit. Accessed at
                  http://www.cms.gov on February 9, 2012.


Analyzing Changes to Medicaid Federal Upper Limit Amounts (OEI-03-11-00650)                                4
Table 1: Methodology for Calculating FUL Amounts

 Timeframe                                                     Statutory Methodology                     Methodology Used


 Pre-DRA (before October 1, 2007)                    150% of the lowest published price   150% of the lowest published price

                                                                                           150% of the lowest published price
 Post-DRA, Pre-ACA (October 1, 2007–
                                                               250% of the lowest AMP     (changes not implemented because
 September 30, 2010)
                                                                                                    of injunction and MIPPA)

 Post-ACA (October 1, 2010–August                    No less than 175% of the weighted    150% of the lowest published price
 2012)                                                                   average AMP                   (interim methodology)


Source: OIG analysis of CMS FUL methodology, 2012.

                    Previous OIG and Government Accountability Office Work
                    An August 2009 OIG report found that FUL amounts based on published
                    prices were substantially higher than acquisition costs, Medicare payment
                    amounts, and retail prices, causing Medicaid to overpay hundreds of
                    millions of dollars per year. OIG recommended that CMS continue to
                    work with Congress to identify strategies that would lower inflated
                    Medicaid payments for multiple-source drugs. 24 CMS concurred with this
                    recommendation.
                    A September 2010 OIG report found that the majority of drug
                    manufacturers did not comply with CMS’s requirements for reporting
                    monthly AMP data (i.e., the basis for FUL amounts required by the ACA).
                    Because AMP data play a critical role in Medicaid payments for
                    prescription drugs, OIG recommended that CMS take action against
                    manufacturers that do not comply with AMP data submission
                    requirements. 25 CMS concurred with this recommendation. In accordance
                    with an enforcement initiative announced in September 2010, OIG has
                    begun imposing civil money penalties (CMP) on certain manufacturers
                    that fail to report timely AMPs.
                    A December 2010 Government Accountability Office (GAO) report found
                    that FUL amounts based on AMPs were lower than FUL amounts based on
                    published prices (i.e., pre-ACA FUL amounts) but still significantly higher
                    than average retail pharmacy acquisition costs. 26 However, that study did
                    not incorporate the new definition of AMP, and the retail pharmacy
                    acquisition costs did not include rebates that pharmacies may receive from
                    wholesalers or manufacturers.

                    24
                       OIG, A Comparison of Medicaid Federal Upper Limit Amounts to Acquisition Costs,
                    Medicare Payment Amounts, and Retail Prices (OEI-03-08-00490), August 2009.
                    25
                       OIG, Drug Manufacturers’ Noncompliance With Average Manufacturer Price
                    Reporting Requirements (OEI-03-09-00060), September 2010.
                    26
                       GAO, Medicaid Outpatient Prescription Drugs: Estimated Changes to Federal Upper
                    Limits Using the Formula under the Patient Protection and Affordable Care Act (GAO-
                    11-141R), December 2010.


Analyzing Changes to Medicaid Federal Upper Limit Amounts (OEI-03-11-00650)                                            5
                  METHODOLOGY
                  Data Sources and Collection
                  FULs. We obtained the November 2010, July 2011, and September 2011
                  draft files from CMS containing FUL amounts based on AMPs (i.e., the
                  FUL amounts that would have been in effect had the ACA methodology
                  been implemented). 27 We also obtained first- and fourth-quarter 2011
                  Redbook files containing FUL amounts based on published prices (i.e., the
                  FUL amounts in effect). We also obtained CMS’s policies and procedures
                  regarding the FUL program.
                  Medicaid Utilization Data. We obtained a file from CMS containing
                  2010 State Medicaid expenditure (ingredient costs and dispensing fees),
                  payment, and utilization data. 28
                  Pharmacy Acquisition Cost. We collected drug acquisition cost data from
                  a stratified random sample of pharmacies. 29 To obtain these data, we sent
                  letters to 120 pharmacies in January 2011. We asked each pharmacy to
                  provide drug acquisition costs by submitting its largest invoice for
                  November 2010 from each source of supply. 30 Sources of supply include
                  wholesalers, chain warehouse distribution centers, and generic
                  distributors; and we also obtained data for direct manufacturer purchases.
                  We received data from 117 of the 120 sampled pharmacies. We asked
                  pharmacies to report any discounts applicable to the invoices provided.
                  See the Appendix for a detailed description of the sampling design.
                  Data Analysis
                  We reviewed all of CMS’s policies and procedures regarding the FUL
                  program. We compared aggregate pharmacy acquisition costs in
                  November 2010 to aggregate FUL amounts based on published prices
                  (i.e., pre-ACA FUL amounts that were in effect as reported in the first-
                  quarter 2011 Redbook file) and FUL amounts based on AMPs
                  (i.e., post-ACA AMP-based FUL amounts as reported in the November
                  2010 draft CMS file). First, we identified all drugs associated with FUL
                  amounts purchased by sampled pharmacies and totaled the pharmacy
                  acquisition costs for these drugs. Then we estimated how much
                  pharmacies would have been reimbursed by Medicaid for these drugs by

                  27
                     CMS publicly released the first draft FUL amounts based on AMPs in September 2011;
                  however, the agency internally calculated draft FUL amounts based on AMPs starting in
                  November 2010.
                  28
                     This file included data from 48 States. Three States (Alabama, Nevada, and Rhode
                  Island) were not included in CMS’s data at the time we obtained the file.
                  29
                     The Office of Audit Services collected drug acquisition cost data from the sampled
                  pharmacies. See Review of Drug Costs to Medicaid Pharmacies and Their Relation to
                  Benchmark Prices (A-06-11-00002), October 2011.
                  30
                     We defined largest invoice as that with the largest number of legend drug line items.


Analyzing Changes to Medicaid Federal Upper Limit Amounts (OEI-03-11-00650)                             6
                  multiplying the number of units purchased by FUL amounts based on
                  published prices, as well as by FUL amounts based on AMPs, and totaled
                  these respective amounts. 31 Finally, we compared actual pharmacy
                  acquisition costs to estimated reimbursement amounts under both
                  methodologies.
                  To determine how FULs would change under the ACA, we compared FUL
                  amounts based on published prices from the fourth-quarter 2011 Redbook
                  file to FUL amounts based on AMPs from the September 2011 draft CMS
                  file and calculated the difference for each drug. We determined the
                  number of drugs for which the FUL amount was higher and the number of
                  drugs for which the FUL amount was lower under the new methodology.
                  We also calculated the median percentage difference between the FUL
                  amounts.
                  Further, we estimated how much Medicaid expenditures would have been
                  reduced in November 2010 if reimbursement had been based on the draft
                  FUL amounts from that month. State Medicaid expenditure data include
                  dispensing fees; therefore, we calculated expenditures for the ingredient
                  cost portion only. 32, 33 Because Medicaid utilization data are reported
                  quarterly, we first calculated the quarterly expenditures for ingredient cost
                  only and then divided by three to determine monthly expenditures. 34 We
                  multiplied FUL amounts based on AMPs by the drug’s fourth quarter-2010
                  utilization, summed the total, divided by three, and compared the estimate
                  to actual November 2010 Medicaid expenditures based on ingredient cost
                  only.
                  Finally, we examined CMS’s ability to calculate FUL amounts based on
                  AMPs by determining the availability of manufacturer-reported pricing
                  data. See Table 2 for a description of the number of drugs included in
                  each portion of our analysis.




                  31
                     These totals do not include dispensing fees.
                  32
                     In addition to the three States without any 2010 data, four other States did not have any
                  utilization data for the fourth quarter of 2010 and were excluded from this analysis.
                  33
                     We could only calculate ingredient costs for States that had relatively simple formulas
                  for determining dispensing fees paid to pharmacies (e.g., $5 for generic drugs). Thirty-
                  six of the 44 States included in this analysis had a relatively simple dispensing fee
                  formula; we excluded the remaining 8 States from this portion of the analysis. For the 36
                  States, we calculated the total Medicaid ingredient cost for FUL drugs by subtracting the
                  total dispensing fees paid from total expenditures in the fourth quarter of 2010. To
                  calculate dispensing fees, we multiplied the State’s dispensing fee from the fourth quarter
                  of 2010 by the total number of prescriptions for each FUL drug.
                  34
                     This calculation assumes utilization was consistent from 1 month to the next.


Analyzing Changes to Medicaid Federal Upper Limit Amounts (OEI-03-11-00650)                                  7
                  Table 2: Number of Drugs Included in Analysis

                    Analysis                                                   Number of Drugs
                    Comparison of pharmacy acquisition costs to
                                                                                          601
                    FUL amounts based on published prices
                    Comparison of FUL amounts based on
                    published prices to FUL amounts based on                              518
                    AMPs
                    Comparison of actual Medicaid expenditures to
                    estimated Medicaid expenditures had post-ACA
                                                                                          416
                    AMPs served as the basis for FUL amounts
                    (ingredient cost only)
                    Comparison of pharmacy acquisition costs to
                                                                                          328
                    FUL amounts based on AMPs

                   Source: OIG analysis of CMS and Redbook files, 2012.

                  Limitations
                  We are not projecting these results to the population of pharmacies in
                  November 2010. The acquisition cost data were for the largest invoices in
                  November 2010 and may not necessarily be representative of average
                  invoices from sampled pharmacies. We reported our findings in the
                  aggregate and not for each drug because of the small amount of data for
                  some drugs collected from sampled pharmacies. Therefore, we did not
                  determine, for individual drugs, whether acquisition costs exceeded FULs.
                  We did not verify the completeness or accuracy of self-reported
                  acquisition cost data from responding pharmacies. We did not attempt to
                  identify any discounts, rebates, or price incentives not reflected in the
                  invoice prices.
                  Further, we did not verify the completeness or accuracy of CMS’s FUL
                  amounts. The FUL amounts based on AMPs provided by CMS have not
                  been used for Medicaid reimbursement. The number of drugs included in
                  each portion of the analysis varied depending upon the availability of data
                  in each source for the time periods under review. The estimated reduction
                  in November 2010 Medicaid expenditures was calculated using FUL
                  amounts based on AMPs from 1 month and assumes that these FUL
                  amounts would remain consistent throughout the quarter. If FUL amounts
                  were higher or lower during the other months in the quarter, the savings
                  associated with FUL amounts based on AMPs would have been different.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Analyzing Changes to Medicaid Federal Upper Limit Amounts (OEI-03-11-00650)                 8
                  FINDINGS
                  FUL amounts based on published prices were more
                  than four times total pharmacy acquisition costs
                  In November 2010, FUL amounts based on published prices were more
                  than 4 times greater than sampled pharmacy acquisition costs for
                  601 drugs, in the aggregate. During that month, pharmacy acquisition
                  costs for these drugs among sampled pharmacies totaled $139,949;
                  pharmacy reimbursement by Medicaid for these drugs would have totaled
                  $607,376 using the FUL amounts in effect at the time. 35

                  FUL amounts based on AMPs were 61 percent lower
                  than FUL amounts based on published prices, at the
                  median
                  CMS’s September 2011 draft FUL file and the fourth-quarter 2011
                  Redbook file included 518 drugs with FUL amounts based on both
                  post-ACA AMPs and published prices. Implementing the AMP-based
                  methodology required by the ACA would lower FUL amounts for most
                  drugs. At the median, FUL amounts based on AMPs were 61 percent
                  lower than FUL amounts based on published prices. FUL amounts were
                  lower under the new methodology for 461 of the 518 individual drugs.
                  Further, for 72 percent (330 of 461) of these drugs, the FUL amount based
                  on AMP is less than half the FUL amount based on published prices. See
                  Table 3 for the range of differences in FUL amounts.
                  Table 3: Comparison of FUL Amounts Based on AMPs to FUL Amounts
                  Based on Published Prices
                    Difference Between FUL Amounts Based on AMPs and
                    FUL Amounts Based on Published Prices                                          Number of Drugs
                    More than 50.01% lower                                                                        330
                    Between 25.01% and 50% lower                                                                   81
                    Between 0.01% and 25% lower                                                                    50
                    Total Drugs for which FUL amounts based on AMPs < FUL amounts based on published prices       461
                    Between 0.01% and 25% higher                                                                   21
                    Between 25.01% and 50% higher                                                                   9
                    More than 50.01% higher                                                                        27
                    Total Drugs for which FUL amounts based on AMPs > FUL amounts based on published prices        57
                       Total                                                                                      518
                  Source: OIG analysis of 2011 FUL amounts.




                  35
                    Actual Medicaid reimbursement for these drugs can be lower because of other cost
                  containment measures, such as State MAC programs. This total does not include
                  dispensing fees.


Analyzing Changes to Medicaid Federal Upper Limit Amounts (OEI-03-11-00650)                                   9
                  We also calculated the potential reduction in November 2010 Medicaid
                  expenditures if reimbursement had been based on post-ACA FULs (i.e.,
                  FUL amounts based on AMPs) from that month. We estimate that
                  Medicaid expenditures would have been 29 percent ($19 million) lower in
                  that month had FUL amounts based on AMPs been used for
                  reimbursement. 36, 37 Given that this estimate is based only on 36 States
                  and includes only the 416 drugs associated with FUL amounts based on
                  AMPs in CMS’s draft file, total savings would likely be different.
                  Even with the reductions resulting from the new
                  methodology, FUL amounts based on AMPs would
                  still have exceeded pharmacy acquisition costs in the
                  aggregate
                  Despite the reduction in proposed reimbursement for most drugs,
                  post-ACA FUL amounts based on AMPs still exceed sampled pharmacy
                  acquisition costs in the aggregate. For 328 drugs under review, FUL
                  amounts based on AMPs were 43 percent higher than sampled pharmacy
                  acquisition costs from November 2010, in the aggregate. During this
                  period, pharmacy acquisition costs for these drugs among sampled
                  pharmacies totaled $80,922; had acquisition costs for these drugs been
                  based on post-ACA FULs (i.e., FUL amounts based on AMPs),
                  expenditures would have totaled $115,812. 38, 39 In other words, the
                  reduced FUL amounts required by the ACA are still greater than pharmacy
                  acquisition costs in the aggregate.
                  CMS had not completed implementation of
                  AMP-based FUL amounts as of August 2012
                  CMS’s withdrawal of the previous FUL and AMP rules related to the
                  DRA took effect in December 2010; the Federal injunction against the
                  agency was lifted in the same month. As a result, CMS was able to begin
                  implementation of the ACA-required FUL amounts based on AMPs by
                  calculating the new amounts and issuing draft files for review. However,
                  as of August 2012, FUL amounts are still based on published prices.




                  36
                     This estimate is based on 1 month of FUL amounts and assumes that they were
                  consistent from 1 month to the next.
                  37
                     This total is based on ingredient costs and utilization from 36 States with reported
                  Medicaid utilization for the fourth quarter of 2010 and a simple formula for calculating
                  dispensing fees (e.g., $5 for generic drugs). This total includes only the 416 drugs
                  associated with an AMP-based FUL amount in CMS’s November 2010 draft file.
                  Additionally, this total represents one-third (i.e., 1 month) of the quarterly utilization.
                  38
                     We are unable to compare AMP-based FUL amounts to pharmacy acquisition costs for
                  individual drugs because of the sample size.
                  39
                     This total does not include dispensing fees.


Analyzing Changes to Medicaid Federal Upper Limit Amounts (OEI-03-11-00650)                                10
                  Manufacturer reporting of AMP data improved between 2010
                  and 2011
                  CMS’s draft FUL files indicate that manufacturer reporting of AMP data
                  improved substantially between 2010 and 2011. CMS staff attribute the
                  increase to manufacturers’ learning how to calculate post-ACA AMPs.
                  Additionally, in accordance with an enforcement initiative announced in
                  September 2010, OIG has begun imposing CMPs on certain manufacturers
                  for not reporting pricing data (including AMPs) or reporting them late.
                  CMS’s November 2010 draft file contained FUL amounts based on AMPs
                  for 416 drugs. However, an additional 435 drugs were included in the
                  draft file that did not have a FUL amount based on AMPs because
                  manufacturers associated with at least one of the national drug codes
                  (NDC) did not report AMP data.
                  The number of drugs associated with FUL amounts based on AMPs in the
                  July and September 2011 draft files increased substantially (719 and
                  826 drugs, respectively). Conversely, the number of drugs that did not
                  have a FUL amount based on AMP because of missing AMP data from
                  November 2010 to September 2011 fell 95 percent (from 435 to 22 drugs).
                  See Figure 1 for the difference in availability of FUL amounts based on
                  AMPs between 2010 and 2011.
                  Figure 1: Availability of FUL Amounts Based on AMPs

                                         900
                                                                                826
                                         800
                                                               719
                                         700

                                         600
                       Number of Drugs




                                         500
                                                 416 435                                               AMP-Based FUL Amount
                                         400                                                           Missing AMP Data

                                         300
                                                                     212
                                         200

                                         100
                                                                                       22
                                           0
                                               November 2010   July 2011     September 2011

                   Source: OIG analysis of CMS draft FUL files November 2010, July 2011, and September 2011.




Analyzing Changes to Medicaid Federal Upper Limit Amounts (OEI-03-11-00650)                                               11
                  CONCLUSION AND RECOMMENDATION
                  A series of OIG reports consistently found that the published prices used
                  to set FUL amounts (and the related Medicaid reimbursement) frequently
                  exceeded prices available in the marketplace by substantial margins. Our
                  findings in this report indicate that FUL amounts based on published
                  prices exceed not only sampled pharmacy acquisition costs but FUL
                  amounts based on AMPs as well, albeit by a much smaller margin. We
                  also found that despite the substantial reduction in proposed
                  reimbursement, FUL amounts based on AMPs are still greater than
                  sampled pharmacy acquisition costs, in the aggregate.
                  CMS has started to implement FUL amounts based on AMPs by releasing
                  draft files, but has yet to complete implementation as required by the
                  ACA. During this process, CMS has ensured transparency by releasing
                  several draft files for public review and comment. Given the results of the
                  body of OIG work and the potential reduction in Medicaid expenditures,
                  we recommend that CMS:
                  Complete the Implementation of the Post-ACA AMP-based FUL
                  Amounts



                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with our recommendation and stated that it plans to
                  implement FUL amounts based on AMPs in the near future. CMS noted
                  that FUL reimbursement continues to be established in the aggregate and
                  that States maintain the right to adjust reimbursement on a drug-by-drug
                  basis. CMS also stated that 175 percent of weighted monthly AMPs
                  should yield adequate reimbursement for pharmacies while achieving
                  Medicaid cost savings.
                  We will continue to monitor CMS’s efforts to implement FUL amounts
                  based on AMPs as well as the relationship between pharmacy acquisition
                  cost and FULs.
                  We did not make any changes to the report based on CMS’s comments.
                  For the full text of CMS’s comments, see Appendix B.




Analyzing Changes to Medicaid Federal Upper Limit Amounts (OEI-03-11-00650)                  12
                  APPENDIX A

                  Detailed Sampling Plan
                  We identified a stratified random sample of 120 traditional retail
                  pharmacies from a sampling frame of 58,545 pharmacies selected by the
                  Office of Inspector General’s Office of Audit Services (OAS). 40 The
                  sampling frame for this analysis includes all traditional retail pharmacies
                  for 49 States and the District of Columbia (Arizona is not included) 41 that
                  were open for business as of November 10, 2010, and listed in the
                  National Council for Prescription Drug Programs dataQ Pharmacy
                  Database file. The sampling frame excludes pharmacies identified as
                  government, managed care, or nontraditional. We selected a stratified
                  sample with 4 strata and selected 30 pharmacies from each stratum for a
                  total of 120 pharmacies. See Table A-1 for a description of the sampling
                  frame.
                 Table A-1: Sampling Frame

                  Stratum        Description                                                                    Universe Size

                  1              Urban independent                                                                      17,362

                  2              Urban chain                                                                            36,452

                  3              Rural independent                                                                        2,798

                  4              Rural chain                                                                              1,933

                                 Total                                                                                  58,545
                 Source: OAS final amended sampling plan for Review of Drug Costs to Medicaid Pharmacies and Their Relation to
                 Benchmark Prices (A-06-11-00002).




                  40
                     We are using data that were previously collected for work related to pharmacy
                  acquisition cost and Medicaid reimbursement for prescription drugs. See Review of Drug
                  Costs to Medicaid Pharmacies and Their Relation to Benchmark Prices (A-06-11-
                  00002), October 2011.
                  41
                     Arizona had a managed care system for providing drugs to Medicaid beneficiaries at
                  the time OAS collected pharmacy acquisition costs. After discussions with CMS, OAS
                  chose to omit Arizona from its review.


Analyzing Changes to Medicaid Federal Upper Limit Amounts (OEI-03-11-00650)                                                  13
                                  APPENDIX 8

Agency Comments




   t.::i-	
       ,.l. tl'JYICF.t,

    <"""                  ""

                               DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Centers for Medicare & Medicaid Services


                                                                                                      Administrator
                                                                                                      Washington, DC 20201




                          DATE:        AUG 0 8 2012
                          TO: 	          Daniel R. Levinson 

                                         Inspector General 

                                                           /S/
                          FROM: 	        Marilyn TAI\ceriner 

                                         Acting Atlmmistrator 


                          SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "Analyzing Changes to Medicaid
                                     Federal Upper Limit Amounts" (OEI-03-11-00650)


                          The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                          comment on the OIG draft report entitled ''Analyzing Changes to Medicaid Federal Upper Limit
                          Amounts. " This report provides an analysis of Medicaid pharmacy reimbursement comparing federal
                          upper limit (FUL) amounts based on published prices to FUL amounts based on average
                          manufacturer prices (AMP) currently in statute. Further, this report provides analysis of both
                          published pricing and AMP-based FUL<> to pharmacy acquisition costs.

                          Prior to the enactment of the Deficit Reduction Act of 2005 (DRA), FUI..s were established based on
                          commercial compendia pricing. The DRA revised section 1927 of the Social Security Act (the Act)
                          to require that the Secretary establish the FUI..s using AMP, a pricing methodology based on actual
                          sales data. However, CMS was enjoined from implementing the FUI..s using this methodology. The
                          Affordable Care Act again revised the Act to require that the Secretary calculate the FUL at no less
                          than 175 percent of the weighted average of monthly AMPs for pharmaceutically and therapeutically
                          equivalent multiple source drugs that are available for purchase on a nationwide basis. Beginning in
                          September 2011, we issued draft FUI...s based on the current statutory requirements for review and
                          comment only. In addition, we have posted the draft methodology used to calculate the FUL<>. These
                          draft FUL prices are based on the most recently reported monthly AMP and AMP unit data, as
                          required by statute.

                           OIG Findings

                           The OIG found that FUL amounts based on compendia prices were more than four times greater than
                           sampled pharmacy acquisition costs for 601 drugs in the aggregate. This confirmed findings from
                           prior OIG reports which consistently found that using compendia prices to set FUL amounts
                           frequently exceeded prices available in the marketplace by substantial margins. OIG also found that
                           the AMP-based FUL amounts were 61 percent lower than FUL amounts based on compendia prices
                           at the median. OIG concluded that the AMP-based FUL amounts exceeded sampled pharmacy
                           acquisition costs in the aggregate.




Analyzing Changes to Medicaid Federal Upper Limit Amounts (OEI-03-11 -00650)                                                                     14
Agency Comments (continued)




Analyzing Changes to Medicaid Federal Upper Limit Amounts (OEI-03-11-00650)   15
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and David E. Tawes, Regional Inspector General in the
                  Baltimore regional office.
                  Edward K. Burley served as the team leader for this study. Other Office of
                  Evaluation and Inspections staff from the Philadelphia regional office who
                  conducted the study include Eric Merron. Central office staff who
                  provided support include Althea Hosein, Kevin Manley, Debra Roush, and
                  Tasha Trusty. Office of Audit Services staff who provided support include
                  Paul Chesser.




Analyzing Changes to Medicaid Federal Upper Limit Amounts (OEI-03-11-00650)                  16
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
